/

-5487

No.

IN THE
SUPREME COURT OF THE UNITED STATES

filed

Mimas

— PETITIONER

(Your Name)

AU6 1j 2020
2E2CEOFTHECLERK

VS.

SJ1UE of nmms

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

MKUMF court ff inmni.1;, first t^sTftirt
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

■Jtrornf KAoms
(Your Name)

711 Koskcf skin S-j-rffV
(Address)

Mfnapd. Illinois
(City, State, Zip Code)

V

(Phone Number)

QUESTION(S) PRESENTED

Vlhcther the procedural bar o? res judicata may
serve as the basis For the dismissed op constitutional
alarms that were previously1 raised, bod- with substantially
different underiying rtosonings.
Vlhetber case low authorities may be applied to any
constitutional clams that were not subject oF those decisions.
Whether the 15II0II5 years to life Firearm enhancement
provisions render Illinois' Attempt statute unconstitutional
on its Face under the Cruel and Unusual Punishment Clause
oF the Eighth Amendment
VI he then the Illinois Supreme Court's decision Sharpe
overruling the Illinois Supreme Court’s constitutional
on was badly reasoned and wrongly decided
decision in
and therefore must be overruled.
Vlhetber petitioner's 15-year Firearm enhancement is
unconstitutional os-applied to him under the hue Process
Clause oP the Fifth Amendment

-I-

LIST OF PARTIES

IXI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

m

:
7.

i

:
:

:

It

TKftLt OF K\nttOMT\E5 CttEb

i

mirniR

pkgf

CKSF.S
Davis i/. Passman, m0.5, 113 (1313) .

.. . Ill

.*

Graham (/, Florida, 500 IS. 35 (10101 . . .
. .. 18
Marbury v. Madison, 5 0.5,1 Cranch 1510503) .......... 13
..n
McCulloch v. Maryland, 11 0.5.4 Wheal3100513) . . .
Hiller v. Mabaaia, 5G1US.000 (1011) . / <• <*
. . 1 30
Ploskal v; 'UnitedStates, 33$ 0.5,103 (1330)
«
;13
Payne 14 Tennessee, 5010.5, 305(1331)
30
United States v. PouutU, 313 0,5. 31 (1375) ,
a.

c

s

0

a

«

•

Peo^/e i/, Harris, 100 Ill, Id 1 (10050 . . . .
People v. Bloomincjburp, 330 Ill. App.3d 308 (3,003)
People K English, 353 Ill.,ftpp.3d 331 U003)
People v, Thompson, 1013 1L App (\5+) 113105
People v. dale, 101110 f\pp(Hth) 100333 „ .

•

0

4

0

<

a

0

a

*

*. .. 0

a

«

«
People v. Porta, 1010 tUpp(ld) 1H0113 .
People v, Morgan, 103 Ill. Id M70 (1003) . . «

e

e

0

0

it,n

«

«9

0

d

0

15
15,10
15,10
10

0>

*

f

13

- , 10-11
. . 13
.
. . . 13,13
0

People v. Guyton, 1013 lU\pp C\s+)VIOHSO . . .
Peopltv. diPTries,103 III, Id 103 (1335) . .
People t Sharpe, 11C III Id 381 (1005) e . r . .
« . . . 13-11
35
People v. Grab ton, 1011 1L hpp (15+) 1315 00-1) . . .
People v. Baker, ^ \ Ill, f\pp.3d 1085(1003) . . . .15,35
People v, Tliwoli, 138 111.Kpp.30 001 (1331) ......... 33
0

£>

d

<a

7

** *

A

0

i

!

ST MUTES KNh RtllES
VJ.5. Const, Kmend, "V . - .
U.5. Const. Kmend.TOl . .
III. Const. I<n0, l\rt. I, §11 .

. . 33

'.«

9

<5

•»

- • U,I3,37
. . 15,37
• . - 33
«
33,35
- • 13,31,37,30,33,33
• - 35
m\ *
. 3,0
«
« <* 30,31
• . . 30,31'
V

73.0 ILCS 513-3.0 . - .
730 ILCS 513-15,5 ....
730 ILCS 518-5 . . .
730 ILCS 518-5,5-1 . . .
730 ILCS 515-3 ....
730 ILCS 5I33M . . .

O

o

.•

.*

S.

. «F

730 ILC5 5/5-G-l .... -»
730 ILCS 5/5-H.5-35
730 ILCS 515-5,5-30 . . **
730ILCS 5/5-5-B ....
730 ILCS 515-8-1 . . .
735 ILCS 513-1501 .....

«

■

>

•9

V

w .

0

4

A

"O

•9

a

o

4

Ok

<4

*.

O

o

a

9

c

<4

<3

.

. . 30

V*

a

-iv-

o

«

. . 1.1
. . 31,33

■ 4

o

9

«.

a

0

9

a

11,13

'v.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3-5

STATEMENT OF THE CASE

G-W

REASONS FOR GRANTING THE WRIT

\3r35

CONCLUSION

30

INDEX TO APPENDICES
APPENDIX A

Decision o? the Illinois Kppellate Court

APPENDIX B

Decision oP the Illinois Circuit Court

APPENDIX C

Decision of

APPENDIX D

W/A

APPENDIX E

n/a

APPENDIX F

N/ j\

Illinois Supreme Count Denying Review

- v-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[] For cases from federal courts: ^|/\
The opinion of the United States court of appeals appears at Appendix
the petition and is

h

to

%

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

h

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
N For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
IXI is unpublished.

aiA

The opinion of the
X\hn01S
court
appears at Appendix ---- to the petition and is
[ ] reported at
XlA
; or,
[ ] has been designated for publication but is not yet reported; or,
IXI is unpublished.
-1-

to

JURISDICTION
[ ] For cases from federal courts:

ft-

The date oi| ^which the United States Court of Appeals decided my case

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:______________________ , and a copy of the
order denying rehearing appears at Appendix ^ h
[ ] An extension of time.to file the petition for a writ of certiorari was granted
to and including.
N1 h__ n_________(date) on
1h
_______(date)
in Application No. _lh.A _!lm_.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

C<] For cases from state courts:
The date on which the highest state court decided my case was MflVI 37, 20^0
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------- Lh—------ _—, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____[A _________ (date) on "\h
(date) in
Application No. wlA A ^1JV The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-a-

CONSTITUTIONAL KM 5TMUT0f\Y VRO\f\5\ON5 ibWOLVED
United States Constitution fWncWnt^7
No person sVva\1... be deprived oP life, liberty, or property
without due process op law*
Mted States Constitution IWndmpnt YtTT
Excessive bail shall not be.required nor excessive Pines
imposed, nor cruel and unusual punishment inflicted.
Illinois Constitution 1110, Article :I, Section II
Ml penalties shall be determined both according to the
Seriousness of the offense qnd with the objective of
restoring the ofpender to useful citizenship,
HQ- IIC5 5/m-icQ->fVl(yiest 10001
Current law does contain oPPenses involving the use or
discharge oP a gun toward or against a person, such as
aggravated bathtry with o firearm, aggravated discharge
of a Pi re arm, qnd reckless discharge of a firearm;. however,
the General Assembly has legislated greater penalties tor
the commission oP a felony while in possession of a firearm
because it deems such acts as more serious.
I
i
;

i
?

-3-

i

I

TA(\ n (s wm-i (Y^nMvifVt im)
In orAer to Arm the use oF Firearms In the commission o? q Feiony
oFFense, it is intenAeA that more severe penoities are imposed.
The vise o? Firearms in Feiony oFFenses causes a serious threat to
the pubiic health, saFety( and general welfare.

~no u cs smK-i (Furirwest
With Ate additional elements oh the discharge a? a Firearm onA
great bodily harm inFlicted by a Firearm, it is the intent o? Abe
mare sev erely during
General
commission oF a Felony oFFense than when those elements stand
alone as the act oF the oFFender,
I'xo n m -5/ft-qnn (West-anm
K person commits an attempt when, with the intent to commit a
SpeciFic oFFense, be Aoes any act which constitutes q substantial
step toward the commission o?-that oFFense

110 U C.S FlVt mCnCFHWest imt
An attempt to commit First degree murder labile ormeA with a
Firearm Isa Class X Felony For which \S years shall be added to
the term oF imprisonment imposed by the court.

_ L| _

I'XC) w cc 5/a-m mnvnfw^aom
> \

An attempt to commiT First decree murder during which t\n-e
person personally discharged a Firearm Is a Class X Felony For
ears stall be added to tbe term o? imprisonment
m

110 ll.CS 5/8-M rn (HfFKWtst 1011)
An attempt to commit First degree murder daring which tte
person personally discharged Q Firearm ttat proximateiy
caused great bodily harm, permanent disability, permanent
disFigurement, or death to another person, is a Class X Felony
For which 15 years or up to a term oF natural Vi?e shall be
added to the term oF imprisonment ‘imposed by tine court

-5-

STATEMENT OF THE CASE

The Illinois (\ppel\ate Court affirmed The dismissal of
Jerome Mams' petition for relief from judgment, filed
pursuant to 115 ILCS 5/3-1401, challenging theconstitutionality
of his 3l5-y-ear firearm enhancement. (Kppendix f\)
Qverviem
Jerome fVdams was indicted and tried on five counts of
.attempted first degree murder and one count of aggravated
battery vwith a firearm for the September 1, 20\2 shooting
of Michael Gray, CTr.. C. 30-35T1 following a bench trial, Mams
was convicted on all counts. (Tr. it 1)<HY) Mams1 convictions
mere merged into a single count of attempted murder, for
which he mas sentenced to 10 years on the attempt murder
and a 3.5-y-eqr add-on for personally discharging a f irearm
that proximately caused great bodily barm to Michael Gray,
totaling 35 years Imprisonment, (Tr. C. VU* Tnit b!3, YlB-fO

The common law and report of proceedings records for
the bench trial proceedings will be cited os (Tr.C.t and
(Tr.iO respectfully. The common law records for the postconviction proceedings mill be cited as (CT respectfully.

-Q-

Tr\q\ nob birecb Knnpg\
bb
During bbe tariy morning Q? Sepbember 1, ‘VOil, Adorns ond bis
giribrierd, Caroiyn Vlebsber, mere ob tbeir boose \n\b\\ VJebsber's
5isber, dyesba Sanders, Sberiba kioben, FYicbaei Gray, Sbakiro and
Sbamyo dobnsoo, Tomesbob Fabberson, and a number ob cbiidren. UvX
SiVib, UUO, 7U75, bVG(USUi, SO-AG) Vkbster, Mew,
Sawders, and Adams bad been drinking liquor q\\ day. CTr-iV bWib

TM,W
As mtdnigbb passed; Sanders uJenb bo bed opsbairs becouse sbe
mas drunk, SAo.\^\ra mas oubside ba\king on bbe pbone, and Fadberson
a\so wenb opsbairs, uubere Sbqmya, Men, and bbe cbiidren mere
sleeping, Ur.U SHAU,1V7F>. TbiUl, S\-SU Ab some poinb, Adams
boob Wtbsbers drink and bbreuo ib in bbe sbreeb; and bbey began
bigbbing inside bbe bowse. (Tv, i\. SWAG, TGd Gray inbervened and poked
Adams obF b? VJebsber, cmd Adams iePb bbe bouse oub bbe bacb door.
Ur.k.TViCO
A Few minubes iaber, Adams malked in bbe bqcb door wibb a gun
in bis band, CTr-b-TU The nexb bbing Gray remembered UIQS li) aking up
in bbe bospibab Ur. ib’WIG) because Gray did nob remember bbe
incidenb,. and Mams-did nob besbiFy, Websber ujqs bbe on\y eyeuitbness
bo bbe sboobing,
biebsber besbif led bbab sbe seen Gray ond Adams bu55\ing over q
gun bbab Adams bad- UmibSWIU VJebsber sbepped back and
beard a sbob; bub did nob see uobo Fired bbe gun, and did nob knouu
iF Adams ieFb bbe bouse. (Tr.ibSXU Homever, according bo Vkbsber
-7-

\!\deiydaped cdademend, udnWt Gray and Kdams wetsdied over dde c^un,
sW seen Kdams Vree Kis dond , drinij dde ^n np -Vo Grab's Vie a A and
sdood dim once, dden run oud dde drond- door. (‘bY. tx.Wl Sdadira
and VadVerson q\so seen Kdams Vieein^ odder dde sdoodm<y. (Ic«?aS5H
bd,Tbd-G5)
Oddicers desdibied -VV\a-V dbey responded Vo dde scene and an
Qmduiance dood Gray do dde baspYda\. nt.K.TOA, GO-GGO On Gepdemder
\1,G0\^,. Kdams mas arresded and dadenindo eusdody. CTr.dwTW
On Vedruary 1, ^Oid, dde driai courd ruled dbad Vledsder's driai
desdimony was nod- credidie, and relied onder Mideodaped sdademend
insdead, and oaddad dasis, daond Kdams o^ildy on ail sounds. UnOl'W)

Kda ms1 convicd'ions were merged indo

q

single found od addempd murder.

(Tmd.VdGO Mams'modion Von a new driai was denied. CTmd, UOl
On Y\ay id, G01G, during Kdams1 sendencin^, dde driai courd sdaded:
%vTde sendenee ddod \ delieve vs mosd appropiade \nou\d de
10 years on dde odlempd murder ond ddad is endanced dy dde
years. So, ddad dedal would de Gb years. TdaVs dde sendenee
dda-d \ will impose; sir ..." (drXY1H°0
Kdams' modion do reconsider sendence was denied. CTr.ft.Y3lO')
Mams diied a-dime\y nodice oV appeal on 1M\| IMGOIG, dud
sudsecpuendly moved do dismiss dde appeal on danuary \1,10\G because
inis appellade counsel Viled a brie? on Hovemder TH, G015, raising one
issue wbicb was Vrtvolous, (Tr, C.VH5) On February GG, ZOIG, dde
Kppeiiode Gourd cjranded bis dismissal in do. \-IVlT50.

freviflUS CoilQ'tfrnl Vroreedinns
J

On Kupust 3d, Tbih, Adams filed a petition far declaratory
judgment CC.SV), and raised a facial challenge to the constitutionality
of the \5l‘10|15 years to life firearm enhancement provisions to the
Adtempt stadude, on fft basis that they violate due process, the
proportionate penalties danse, the rnte against double enhancement,
end ore an constitutionally vague and overbroad. CC.TT-AU On
September SO, T0\d, the circuit court denied the petition based on
its finding that the mandatory sentencing enhancements has been
challenged and upheld on all the aforementioned basis in Pioplt v.
Blooming burg, SdG III l\pp. Sd S0KT00HS; Ptopk v, English, S5SI11. App.
Sd SSI (100H1;. People v, Thompson, TOiS \L App CistS US105; and People
V. Hale, TOU \L App CddM iOQW. CC.\07-\0Si Adams' request to
file a late notice of appeal urns denied. (C. ISIS
On October 11, TAid, Adams filed a second petition For
declaratory judgment, sedding fordh the same claims, 'CC.WVliV)
The petition was denied by the circuit court on December Tt, T01H
based on ids previous ruling on the first petition, C C.BVIdSS
Adams did not appeal this judgment..
On January ‘TO, TO\G, Adams filed a pro st petition for post­
conviction relief, which was amended on ftbruary 1C, TQIC. (C.\St,TII)
In the petition, he claimed, inhralia, that the lb I TO ITS years to
life firearm enhancement provisions to th-e Adtempd sdatute are
facially unconstitutional under the double jeopardy clause, one-act/
one-crime rule, rule against double enhancemend-, proportionate
-V

penalties douse, and due process and egual protection clause,
(C.318-335) On April \, 3010, the circuit court summarily
dismissed the petition based, in pertinent pari, on its previous
ruling on the petitions for declaratory judgment, and Adams
appealed the dismissal. CC.351-353, 331) On appeal, Qppelloie
counsel uuqs permidted io withdraw, and the Appellate Court ofFimed
the dismissal in People vJolans, No, HG-1H01 [April U,301 ftXimpublished
order pursuant to Supreme Court Rule 33). Petition Par Leave to
Appeal was denied by the Supreme Court op Illinois on Nov ember
IS, 3018 in Supreme Count Ua. 133>44?i.
Insdnnt Proceedings
On January 34,3015, Adctms Piled the instant section I-IHOI
petition Por relief Prom judgment. (C.400 -410) In the petition,
Adams claimed that his 15-year add-on is facially unconstitutional
and void ah initrio under the proportionate penalties clause} and
is unconstitutional as-applied to him under the due process clause,
(C.MOI-hOh)
On Planch 35,3018, the circuit court summarily dismissed Adams'
section 3-IH01 petition hosed on ids previous ruling on the petihions
for declaratory judgment, and petition Por post-conviction
relief, C C, 418 - Hit) ( Appendix B)
On Harch 4,3030, counsel on appeal mas allowed to withdraw,
and the Appellate Court aPPirmed the dismissal of Adams' section I'lHOl
petition, finding that there are no issues of arguahle merit to be
-10-

\

asserted on appeoA. People v, Adams, tAoc
IWarcAnH(^C40)
( uap\AoV\s\\ed order piirsuawV |q Supreme Coor^ Me
hppei\d\x h)
teliTion Vor \_ta\ie -Vo !\ppea\ was den\ed b)1 Wit Supreme Court
oV X\\mots on Way X"7 i XQ2i6« CKppendlx CX>;.
This appeoA ?o\Vouj5

.5

VI

:

,i

REASONS FOR GRANTING THE PETITION

I.
The Illinois Appellate Court's judgment alarming the
disrrdsso\ o? Morns' section 3.-IM01 petition is erroneous
because the dismissal mas improperly based on res
judicata and inapplicable case Iquj authorities,
Vilhen the.Illinois circuit court dismissed Adams' section
3.” It 01 petition, not only did the court misinterpret and
mischaracterm Mams' proportionality claim, but it also
improperly applied the doctrine of res judicata and inapplicable
case law to the claim, and failed to give any due consideration to
his due process claimT (Kppendix B) Adams raised these claims
before but with different underlying reasonings, and so hove the
defendants in the cases relied upon by the circuit court.
Accordingly, the circuit court erred in dismissing Adams'petition
and this issue does have arguable merit to be asserted on appeal,
and, os such, the appellate court erred in affirming the circuit
court's dismissal of Adams' section IMhOI petition,
Petitions for relief from Judgment are governed by 735
ILC5 5II-1H0I, Section I-\S0\ of the Cade of Civil Procedure is a
civil remedy that extends to criminal cases and provides Q comprehen­
sive statutory procedure by which final orders and judgments maybe
vacated more than SO days after their entry. The stabute
requires that the petition be supported by affidavit or other
-II'

appropriate showing os to maters not o? record. kVie? order
section VlMOi is predicated upon proof, by a preponderance
o? evidence, of a defense or claim trlnot would have preceded
entry of the judgment in the original action and due diligence
in hoth discovering the defense or claim and presenting the
petition. Section VIM01 may also be used to attach a void
judgment. 735 1LC5 51V1H01 Ca-fHVkst mi) " f\n act of the
legislature, repugnant to the Constitution, is void!' Florhurj/ V.
Hodison, 5 «,S. 1 Cranch 1B7, \T] (\*03Kinternal quotation omitted).
f\. The circuit court- improperly applied the doctrine oF
res judicata.
In its order summarily dismissing hdams' section VIH01 petition,
the circuit court noted that Kdams noised his instant proportionality
claim in his previous petition for declaratory relief and his initial
post-conviction petition, and that the court already denied the
claim on September BO^Oi^and f\pril hVIG, respectfully. The court
found that therefore, res judicata barred consideration of hdams'
instant proportionality claim. Chppendix bat H)
In Mams’ previous petitions £oc declaratory judgment, he
claimed, inter alia^ that the \5j3l01dl5 years to life firearm enhancement
provisions to the attempt statute ore facially unconstitutional
because CV) they violate the proportionate penalties ciause where
they are cruel and degrading, and attempted murder with a firearm
carries a more severe sentence than attempted murder with other
-13-

dangerous weapons) and CX) they violate due process where the
penalties are no'V reasonably designed to remedy the evil targeted
by the legislature since they do not deter the use ob birearms during
the commission ob Felony obbenses. CC, 4X~U, UVllM
In Moms' previous petition For post-conviction relieF, Vie
claimed, inter aliQy that the lblXQ|X5 years to UFe Firearm enhancement provisions to the athempt statute are Facially unconstitutional
because (\) they violate the proportionate penalties clause where
atempt murder bas identical elements as but carries q more severe
sentence than aggravated berbery with d Firearm, and tbatib is
cruel, degrading, and shocks the moral sense qF bbe community to
subject a debendant. to G> to tO years and lb/XO/3,5 years to Wbe b or
the some act ob discharging a Firearm1, and it) they violate due p racers
uibere they are contrary to legislative intent and an invalid exercise ob 1
the State's police power, as the penalties are not reasonably designed
to remedy the evil targeted by the legislature since they do not deber
the use ob Firearms during the commission ob Felony obbenses. (C.XS-3X5)
In Mams' instant section X-\40\ petition, in support ob his claim
that his X5-year add-on violates the proportionate penalties clause,
be reasoned that because the !5l3iOlX5 years to Vibe Firearm enhance^
ment provisions apply to adtempt First degree murder without regard
to whether the mitigating circumstance oF possessing an unreasonable
belieF in the need For selb-debense is present, which mould preclude
the imposition ob these enhancements For the um\enl\jing obbense ob
First degree murder and result in a much lesser sentence btaan that
bon an attempt, the penalties For attempt First degree murder
-14-

\}\\(W the \5 IIP) 115 years to WPe Firearm enhancement provisions
are so \ohoWy disproportionate the ahPense that they shach the
moral sense oP the corrmm\\p COMOt-hOI')
The circuit court Pound this claim harred by res judicata! on trVie
basis that it was raised in Kdams1 previous petitions For declaratory
judgment and petition for pasd-convection relief, and already denied
by the court in those proceedings. C G.TOl however, the circuih
court's Finding is erroneous because although lldams raised propor­
tionate penalties claims in those previous petitions, the reasoning
oP those claims is iiPPerent Prom thereasoning oh hdams' instand claim.
furthermore, in Kdams' instant petition, in support o? his ciaim
that his 15-year add-on vioiates the due process clausef he reasoneol
that as-applied to him, the i5llt)ll5 years to liFe Firearm enhance­
ment provisions to the attempt statute are nut reasonably
designed to remedy the particul an evil that the legislation was
intended to-target because based on the legislative Findings and
Intent sections op Pubiic Kct di-HOd, Moms’ mere use a? a Firearm
did not subject him to these severe penalties. C C*H0t©~H
Thecetone, res judicata does not apply here. People v. Harris

miihadi, hi uooiv
8. Tie circuit court improperly applied inapplicable case Jam,
The circuit court also Improperly dismissed hdams' petition
on the merits, where the court appiied the holdings in People v.
flloominqburg, dtb Ill, hpp, dd t0?> (lOOd-); People v« English) ltd Til.
-15-

hpp. 5d 551 030050) People i/. Thompson , 1015 \V hpp thYl \\5\05;
*^d People v, Hale, 1011 W_ hpp C5YV) \00YHV The caurY’s reliance on
Those cases Is, homever, misplaced, QsYhe baths There are
readily dlsYingulshable.
In Bloominghurg, Q Firs f degree murder case, -VVve-Ae?et\4Qn"V
conYendtd, infer q7/o, YbaY Ybe 15~\jear Firearm enhancemenY
provision For FirsY degree murder violates The praporYtonaYe penalYies
clause because IT punishes more severely Those murders caused by
Firearms Than Those murders commiTVed by aYher means. blooming-burg,
3H0II1, Kpp. 3d aT 311-1Y The courV bound no proporTionaTe peualTies
violation because There mas no basis To onderTahe TheldenVkal
tlemenYs TesYob proporTionaTe penaiTies analysis and This was The
only Y^5Y debendanT relied upon Yo supporY his argumenY, Bloaminghurg,
ah 311.

In English on armed robbery ease Thai did noY Involve The \5110/3.5
years Yolibe Firearm enhancemenY provisions, The courY rcjecYed
debendanY's due process argumenY because hpprendi did noY apply inhere
his senYence did noY exceed The prescribed sYaYuYory maximum. English,
353 111. f\pp,3d aT 3H0.
In Thompson, n First degree murder case, Vbe dtbendqnY argued ThaT
The 15 years Yolibe Firearm enhancemenY provision For birsY decree
murder Is UKonsYiTuYianaily vague, and The counT concluded ThaT The
15 years To libe Firearm enhancemenY provision is nob uncousYiTuTionally
vague, Thompson, 1013 IL hpp (AsT) 113105, purs. 115, \10-lh
In lia/e, a threatening o public oFFicial and aggravated battery case
ThaT did noY involve The 15(10115 years Yo libe Firearm tnbancemcnY
~ 10"

pvov\s\ovvsi the court rejected defendant's maximum and excessive
Sentence arguments and found that defend a nVs 1-year sentence
Ujqs not am abuse of discretion or manifestly disproportionate -Vo
the nature of the offense, Vo/e, 9^11 11 hpp (HfVi KMTO, pars. 'dG-db,
These. cases art inapplicable to Mams’ cose because, not
on\y are They not adVempt murder cases, but The defendants'
arguments ore clearly not The same as Mams', and, Thus, The
holdings inthose cases does not control IN da ms1 clams.
Therefore, Mams has stated cogniiable claims under section
1-flOI, and the circuit court erred in dismissing his petition on the
basis of res judicata, and on the merits hosed on inapplicable case
law authorities.
For these rmons, this Court should vacate the Illinois
appellate courts judgment affirming the dismissal of Mams'
section 2rVIOI petition.

M7-

31.
The \5II0II5 years To life ?\rearm endancewend provisions
render Illinois' corrend f\ddemp\ sdadude uuconsdidudianal
an ids face under dde Crueiand Unusual fuohhmend Clause
of dde bicghdd Kmendmend,
Illinois- adVempd sdadude violades dint Cruel and Unusual
funisd-mend Clause op ddt bicpdh hm end mend do dde llnlded 5dades
Consdidudion because dde I5I1QII5 years do life Firearm
endancemend provisions of dde sdodude are dispropordionade do
Illinois' attempt murder offense, where dde penaldies are applicable
whedder or nod dde offender acded while possessing an unreasonable
belief dhad dis ocdions mere necessary For dis defense( bud are
nod applicable do Illinois' actual murder ofFense when dhe
offender acded while possessing dhis same belief dhad also
subjecds dde offender do a much Usser sendence ddan dde
nendence for an aitempf ufidh oruddhoud dhe I51I0I15
years do life firearm enhancemends.
The EiO|hdh f\mendmend do dde ilnided Sdades Consdidudion,
applicable do dde sdodes via dde fourdeendd bme'ndmend, bars cruel and unusual punishme-nd, namely punishmend-dhad is
"inderendly barbaric" or is dispropordionade do dhe offense.
11.5. Consd. Mmend, \) ill * Graham v. Florida\),5, MS, 5°i
(I0I0I This rigdd ''flows from dhe basic precepd of jusdice
dhad punlshmend for dhe crime should beajraduQdtd and
propardioned -fo bodh offender and dde offense.''

Miller v, Mohamet* SQ1 MS, 3G0,3G>VC3iQ\X)., The Ei^hTh
hmendmenT is correlaTed To The IWinois ConsTiTuTion’s
proporTionaTe penaiTies clause. 5ee People v, Horfa, 3,010,
H hpp CUO) 130113 , par. G3 C uhou)ever, There Is wo dispuie
ThoT The reach op The sTaTe provision is aT leasT as greaT
as ThaT op The Federal one
The proporTionaTe penaiTies clause reTuvres ThaT all
Sentences "be dcVermined boTh according To the serious­
ness oh The oppense and wiTh The objecTive oP resTorlng The
oPPender To usepol c\Tvxenshtp.w Ill, ConsT* 1310, hrT.
Illinois' aTTempT sTaTuTe was amended by Public Kc-V
^l-MOM UP?. dan.l, 3000). The AcT creaTed The 15130/35
years To liPt Plrearm enhoncemenT provisions which Increased
The penally Por adhempT PirsT degree murder based on Tbe
exTenT To which a Firearm is involved in Tbe commission op
The apfense. PorsuanT To The amended sTaTuTe, a dePendanT
whose acTions demonsTtaTe an inTenT To hill, buTdo noT
resulT In deaTh, \s sobjecT To seoTenung ranges oP 3\ To 35
years | 3G To 50 years, or 31 years To naTural UPe,Tobe
served dT &5°/o, depending an 'inheTher a f irearm was \w
The dePendanVs possession, discharged, or The cause op
bodily harm. 73L0.1LC5 5/S-3 ca CIKMKViesU0\3'); 130
HCS 5/5-M.5-35 CVksT30133} 7301LC5 5Z5-5-3 ea(Vks-b
30133. h\ The same Time, however, i\o provision has Veen
made Por one charged v»\TVi aTTempT murder Toin+roduce
midigaTion evidence ThoT he ached while possessing an
•13-

■M tj*.

unreasonable belie.? that h\s actions were necessory for his
defense.
J' hs such, uuderthe current laws of lllinoVs, the" defend a nt""'
wbo intends bo bill and, while using a firearm, succeeds in Killing
V\s victim fas the opportunity bo present mitigation evidence,
bhe proof of uolnich will resulb in a conviction on the lesser ofFense
of second degree murder and, accordingly, exposure to a sentencing
rouge of H bo 70 years (bo be served ab 50°/o) or even o sentence of
probation. 710 1LC5 5/V7CQ3U),CdMVIest 7017); 730 ILC5 ’
5J5-H,5-30(V\fesb 7017); 730 IbCS 515-Grl (West7017b If bhe
vicbim does nob die, however, bhe defendant is foreclosed from
presenbing bhe some mitigating evidence bo secure a lesser
senbence, In facb, where a mibigabing circumstance Vs present,
bhe defendonb mho possesses o gun with the intent bo Kill and who
takes a substantial sbep toward bhe commission of Pirsb degree
murder will be subject bo a sentencing range where bhe minimum
senbence is seven yeors greater than bhe maximum senbence
OVailahle if bhe same defendant acbuolly Fired the gun and
caused bhe victim's death.
’»

■*

*

li»

Kccordingly, bhe 15170/75 yeors bo life firearm enhancement
provisions render Illinois' adtempt statute unconstitutional on its face.
The Morgan decision
In People v. Morgan, 703 Ill. 7d 370 (7003), bhe Illinois
circuit court found that, because ihemoindoWy firearm enhancements
-70-

i - ~T-.

f

io bht stabencing range bor aw adVempbed birsb degree murder coo\j\cbion*
are wWe4 wibhoub regard bo whebber mkigabing circumsbances
are
gresenb, bine. ^efia\JV\e$ bor bhodr obbense are, In some iosbances, so
disgroporbionabe "Vo bhe obbense commibbed bbob they shock bbe Y(\orQ\
sense ob -Vine community. horg an T03 I\\. Td at H$7 (guodations omidted).
Tht Supreme Courb adopbed tbe circuib court's position and bound
Iha-V the adbemph statute CT3lO U-C5 5[<H (.Vksh TOO^d, as amended b
y
Public hch Sl-HOH, Is unconshituhionQi because it permits q dependant
convicted of odtmp+eii firs-f degree murder to be subjecf bo pennies
bbab are i\ob set according bo bbe seriousness of bbe offense. Morgan
&t Hdl. The Court reasoned;
The amended statute provides bbaba dependant who inbends bo Kill
bub bails bo cause bhe death ob his victim shall be eonvicbed ob
adbempted birst decree murder, whether or nob mitigating circumstances
txtsb, and sboll be senbenced bo a term obmprison men t between G
and SOyears, with bbe mandatory addition ob iby ears ^0 years, or
T5 years bo iibe, depending on. whether a blreorm was in defendant's
possession, discharged/ or bbe cause ob bodily barm ordeabbbo onobher.
Kb bbe same time, q debendand who intends bo Kill and succeeds in
causing He deatii oHhe victim, whether or nob a bireorm \s used in
bbe commission ob bbe appease, wi\\ be subject bo a sentencing
range ob d bo TO years (TdOihCS 5/5-«-\ (1,5) (Vkst TOOO))
and may even be eligible bor a sentence ob probation HdOlLCS
5/5-G-i CVJesb TOOQ)); ip bbe dependant" can demonstrate
"3.1-

bhab he ached under serious provocabion or while possessing
The unreasonable belie? bhab selb-debense mas necessary.
Thus, under hhe currenb abbempb ^.A'Q'bvi'V^, per sons
acbions are \c\en-V\cq\ may be -exposed bo vasily disparage
senbences depending on whebher bhe vicbim lives of nob.
Moreover, bbe \rawy is bbab bhe person mho fails io kill bis
Vicbims sbcmds bo be seobenced "io a much yreahr senbence
Than bbe person who acbuolly causes bhe deabh a? bis vkbim.
Id. ab HMI -T3^
The bkui^im DissenT
Tbt bwo dissenbing justices in Morgan (Thomas,A.;dissenting,
joined by Kilbride, d.), misinherprobed, mvseharacheri'xed, and
incorrectly assessed bbe analysis and reasoning conducted by bbe
majority in binding that bbe abbempb statute, as amended by Public
Kcb Tl-MOMf violabes bbe proportionate penalties clause. Id. ab T13-%.
The dissenters erroneou sly bound that bbe majority veiled upon bbe
Then proportionate penalties * cross-com pans an analysis in making .
ibs binding. Id, ab Mhk [emphasis oddedV
kb bbe bime Morgan was decided, bbe second - bype ob proportmnabe
penaibies analysis mas; whebber bbe described obbense, when compared
bo a similar obbense, carries a more severe ptnaiby although bbe
proscribed conduct creabes q less serious -threat bo bbe public health

ond soFety. W. at HS1.
The majority never compared attempted First degree murder
with second degree murder For purposes oP the cross-comparison
analysis, instead, the majority agreed with the circuit court's
Findings, and the majority's Findings, reasoning, and ■■conclusions
align with those a? the circuit court. Sec Morgan,-at 4^-41.
hs the dissent noted, "the majority Finds that the statute here
violates the proportionate penalties clause because a dependant
charged with attempted First degree murder will never have the
opportunity to present mitigating evidence which would be a defense
to a charge oF (first) degree murder. " Id. at LH5~SG (emphasis added),
ftceordingly, this Finding could not have Formed the basis For a
cross-comparison challenge.
Furthermore, contrary to the dissent's position, a dependant
charged with attempted First degree murdercannot raise the
miticjoting Factors set Forth in the second degree murder statute
to negate a charge that he intended to unlawfully Kill Unless it
is determined that a dependant's actions were lawFtilly justified,
this argument will Fail because there is no difference between the
mental states required to prove attempted murder and second
degree murder. See People v. Guyton, I0H 11 kpp (Istd 110450, par,41.
First degree murder and second degree murder share the same
elements, including the same mental states, hut second degree
murder regal res the presence of a mitigating circumstance. People
l/. JePfrles, it4 Ill. Id 104, Ul-Tt (FVtfh The presence ot a
mitigating circumstance dues nob negate the mental state of
-3.3-

murder because mitigating factors are not dements of tbe
crime. dtPPeries^ Hd! Ill. 3d at 111.
B, Sharpe's overruling oF Itorgan wo 5 badly reasoned
and wrongly decided\} and ihere Fore msd be overruled.
Overruling a decision o? the Illinois Supreme Court necessarily
implicates store decisis principles. The doctrine oh stare decisis
allows the Supreme Court to revisit on earlier decision uihere
experience with its application reveals that it is'unworkable' or
badly reasoned. Payne v, Tennessee, 501 13.5,- $05, $11 ClttO,
Stare decisis is not an inexorable command. Payne, 501 115, at
(5 outer, !, con cur ring I
Sharpe's decision overruling Morgan should be nullified
because it contravenes Eighth fVmendment and Proportionate
Penalties principles and, thus, causes serious detriment
prejudicial to public interests.
The Sharpe Decision
The Faulty dissent in Morgan evolved Further in Sharpe,
in which the Illinois Supreme Court, Thomas,!, noted that the
court considered a cross-comparison challenge to the -15/3.0/315to-|iFe enhanced oFPense oh'attempted hirst degree murder in
Morgan. Sharpe, I1G III, Id at 511. The Sharpe court
explained;
-Id-

TV\\s court AiA not acjr-ee with th-e circuit court that the
penalty uuas invaiiA unier the hirst type oh proportionate
penalties challenge - whether the penalty is Too serious hor
its pOrticuW ohhense.
This court AiA hinA, nevertheitss, that the penalty was
invahA unAer the proportionate penalties douse when compared
to the penalty hor seconA decree raurJer (h to TO years),
Sharpe, at 51V1V
The Sharpe court's conhusi on arose hronv the Morgan court's
conciusion that__ vut cannot say that) where mitigating circumstances
ore not present, It uwuiA he crue\, dea^aAincj, or so wholly
Aisproportionote to the ohhense cornrnltheA to subject a
AehenAant who commits the ohheose oh attempteA hirst Aejree
murAer to mandatory aAA-on sentences oh \S years, TO
years or Tb years to lihe, AepenAincj on whether a hirearm
is present, discharged', or the cause oh hoAily \njuryd
Morgan, T03 Ih. TA at Mil (-emphasis aAAeA). The Sharpe court
misinterpreted this conclusion to he A is octree meat by the
Morgan court with the circuit court.
To the contrary oh any disa^tfeeroerrt, the Morgan court's
above conclusion aV\jn with the circuit court's hinting because the

-as-

binding was merely based on Ahe amended aAA-empA sAaAuAe's absence
o? relevance Ao -VVe presence op mitigating circumstances \w qu aAAempA
PirsA degree murder, Morgan,^ MV55, A$1 t emphasis added A
The Morgan courA never conducAed a cross-eowpQrVson'QnalysIs
or Pound AhaA Ahe penalAles por QAAempAed PirsA decree murder were
Invalid under Ahe proporAlonaAe penalAles c\cuise because second degree
murder won a similar ohbense which carried q less severe penally
even -VViDV)gV\ aAAempAed murder creaAed a \€55 senoos AhreaA AoAhe
public Vi-ea-WVi qt\A sa?eAyf KAAempbed murder and second degree
murder art clearly not si/ni/on because Ahe Former requires AhevicAim
Ao live, while Abe laAAer reguires Ahe vicAim -Vo die.
InsAead, based onAhe bindings and an example scenario pvoposeA
by Abe circoH courA, Abe Morgan couri aPbirmaAively Pound AhaA Abe
penalAles For aAAempAed PirsA degree murder ur\der Ahe IblTQlAS y ears
Ao Pipe Tt\QwAcx'Vo>y enhanced senAencing scheme were invalid under
Adne proporAlonaAe penalAles clause because, when mitigating circuit'
stances are present) Abe person who bails Ao Isill bis vVcAim C while
possessing or using a Pirearm) elands Ao be senAenceA Ao a much
greater senAence Ahan Ahe person who qc Anally causes Abe AeaAb oP
bis vicAim (while using a PirearmV See Morgan, at SAO'SA This binding
does noA consAiAuAe a cross- comparison challenge. Moreover, Abe
Morgan courA aPPirmed Abe judgmenA ob Abe cireuiA courA, huV noA
on oAAer grounds, Id, qA M70. Therepore, Sharp e‘s overruling ab
Morgan was badly reasoned and wrongly decided, and musA be overruled .
based on Abe poregoing reasons, deparAune brow stare decisis
U)qs noA dusAibled in Sharpe, nor Aid good cause or compelling reosons

exist, to overrule the Illinois Supreme Court’s dtec\5\Qv\ \v\
Morgan, and, as. 5\)cVi, departure From start decisis is
speciaily justified and good cause and compelling reasons
exist, in this matter, to overrule Sharpe's overruling of
Morgan.
Consequently, Morgan's holding that tine odd'empd*
statute, os amended by Public Kct 4k 404, adding the *15-1015 -Vo liPt" sentencing provisions to the oFFense of attempted
First degree murder, is unconstitutional under the proportionate
penalties clause, still stands because the statute does not
permit the introduction oF the statutory mitigating Pact or
of possessing on unreasonable belie? in the need For se\fdeFense. See Morgan, at TO; "73*0 \\_C5 515-4 co(DCI) (VIest

aou).
Accordingly, there is arguable merit to itdams'claim
that his 15-year add-on is unconstitutional on its Face,
and this Court should grant him tbe re\ieF sought as
necessary to achieve justice.
The Constitution "does not cpartake op the prolixity
o? a legal codet 'McCulloch v, Maryland, \1 D.5. 4 Vlheat 5IG,
101 Obit), it speaks instead uhth o majestic simplicity.
One oF Ots important objects,’ ibid,, is the designation oF rights,
And in (its great outlines,1 ibid, the judiciary is clearly
discernible as tbe primary means through which these rights
may be enforced/' ^l/is ^ Passman, TO li.S. 118 141-41 WTO
(Internal quotations omitFedl
-17-

For "Vhese reasons,. Maws respectfully requests this
Court to vacate the Illinois appellate court's judgment
affirming the dismissal oh his section Q-1H01 petition;
declare Illinois' attempt statute unconstitutional on
its face; overrule Sharpe's overruling of Morgen?) and
pursuant to People t Soher] 3M1 III. Kpp.3d.IQ85,1050
(I0Q3), 51 mply excise the IVyear add-on From his
10-year baseline sentence without remanding this matfer
for resentencing.

m.
Mams' 15-year firearm enhancement is unconstitutional
as- applied "Vo him under drht hue. V no-cess Clause of
The FifTh Kmendmerdr.
Adams 15-year add-on -bo his \0-year baseline sentence
for attempted first degree murder is unconstitutional asapplied +o him under the hue Process Clause of the Fifth
Amendment to +he United Stadres Constitution because
the penalty Fas no ra-Vvonad basis do remedy the pardricu\ar
evil that The legislation u)as intended to Target, vnhere
the legislature dearly intended that- the penalty is
imposed upon those \nho inflict great bodily barm with a
firearm during the commission of a serious Felony offense
tKa-V involves a disilndive criminal act, bod the infliction
of great- bodily barm with a Firearm was Mams' solt acf.
(7r. C;31; Tr. ft. Dll’). Accordingly/ KdamV claim does
have ar
relief as necessary to achieve Justice*
The Fifth Amendment to the United States Constitution
provides that NNMo person shall.. . be deprived of life, liberty
or property, without due process of law." b.5, Const. Mend.'V.

a

The Illinois state courts has shown that those courts
will not resolve the constitutional infirmities in this case.
-It-

Vlben neiAber Abe sAaAuAt nor Abe senAencing guidelines
define qcerAoin Aerm non does Abe -Verm have any esAablished
common - lau) meaning ,• Abe term musA be given VAs ordinary meaning
5ee tloskai v. United States, m 0.5. m, M imo). Adams1 due
process claim musA be evaluoAed qs Abe sAaAoAe is applied Ao Abe
facAs of ibis case. Uni fid States v. Powell, U3 0.5. 37, AT 0775).
Public flctV'tOi
The main purpose, of Public f\cA AM OH; as sAaAed in Abe Act,
is "to deAer Abe use oF Firearms in Abe commission of a Felony
offense/' C Codified aA 13,0 \U5 -5I33M IbHi) CVfesA 3.000')'). In
order Ao accomplish Ah is purpose, Abe AcA amended Aen criminal
sAaAuAes, including KAVempA, vuiAbAbe 1513.0175 years Ao life
Firearm enhancemenA provisions. 73.0 IIC5 5/5M ccvCHCH)
(VhesA 3.0007.
The " use oF firearms in Aha commission of a Felony offense"
liAerally means: possessing, brandishing, or discharging a Firearm
Aoward or against a person or in Abe air, tvh/le at the same time,
perForming an act qgainsA AhaA same person or another, which
is distinctive and constiAuAes g Felony oFFense perse.
This liAeral meaning is evidenced by Abe legislative findings
and intent sections of Public KcA 71 -MOM. Under MegislaAive ■
Findings'' Abe Act staAes in pertinent part*.
Current \auo does conAain offenses involving Ah e use or
-30-

discWrge Qp q gun Foomrd or againsF o. peeson/sucY as
aggrcmFed YaFYery wiFF a Firearm, oggeavoFed discYarge
oF a firearm, ond
ddscYarge q? o f ir-earm j
Fomever, FYe General KssemY\y Fas legYs\aFed greaFer
P«t\q\'V\es For dYe commission of a Feiony mYile in possession
o? o firearm because YF deems sucY acF s as more serious.
(CodiPied aY 130 \US 5I33K-1 toHFi CVksF 3,00031
linger ''LegisiaFive InFenF,'' FFe KcF sFaFes in perFinenF parF-VliFY FFe addiF ional eiemenFs op FYe discV arge oF Q
firearm and greaF Bodily Farm InFlicFed Yy a firearm,
iF is FYe InFenF oF FYe General KssemYly Fo punisY FYase
elemenfs more severely during commission oF a Felony
offense than when those elements stand alone as'the oct
oF the oF Fender. ( Codified a\ 130 WC5 1I33MBY) UF
(VlesF IQOCPOCempYasis addedY.
Based on FFese sFaFtmenFs , in creading FFe 13|30i35 years
Fo iiPe Firearm enYancemenF provisions, FFe legislaFure clearly mFended
FFaF more severe senFtnces are imposed wYen an offender possesses
or discharges a Firearm Froward or againsF a person during FYe
commission oF serious felonies FFaF involve distinctive criminal acFs
than ujFien FYe discharge oF a Firearm Fouoard or agalnsf a person
is FFe sole acF oF an oFFender. TFus, FFe iegislaFure Yave
deFermined FYaF FYe Former Firearm conducF is a more serious

-31-

VYreaV "Vo Vne public YeoWY anA saFeVy VWnls VYt WYFer
The hmended Attempt Statute
TVe aAYerapY sFaVuV-e. provides in perYinenY parV'(Q1 FlemenVs o? VYt OFFeose. K person cowmiVs an aiYempV
wYen, vxj\^"Vk VYe inYenV Vo eommiV a speciFic oFFense, 1no
Aoes any acY ujV>\cYi consViVuVes a subsVanYial sYep YouiarA
FYe commission oF VYaV oFFens-e,
CO SenVence. CV) TYe. senYence For an adVempF Vo eommiV
FirsV decree mrrAer is VYe senVence For a Class X Ftiony,
txcopY VYaY
(YO an aYYempY Yo commiY FirsY Aea^ee \wAer u)Viie armed
uYYY a Firearm is a C\ass X felony For usYicY 15 years
sV\al\ Ye aAAeA Yo YYe Verm of imp ri son men Y impostA Yy Y\\e
ccurV;
CO an aYYempY Yo eommiV firsY Ae^ree murAer Auriwj \uYicY
YYie person personally AiseYqrtjeA a firearm is a Class X
ears shall Ye aAAeA Yo VYe Verm of
imprisonwerrY imposeA Yy VYe umV;

-3V

QO attempt to commit First degree murder during
which the person personally discharged a firearm that
pro xi motel y caused great bodily harm, permanent
disability, permanent disfigurement, or A to tin to
another person, is o Gas's X felony for which 3S
years or up to a term of natural \i?t shah he aided
to the term of imprisonment imposed hy the court.
730 HCS SlS-H ten, CO CiXHXVkst 70137. A Class X Felony
carries a sentencing range o? Gto 30 years. 730 \LC5 5/5-g-l
CO,') C30 CVkst 30103.
The measures added to the N' General tkfinitians" section
inciuAe sections 7-3,0 amd 0-\5,5 of the Criminai Cote. Section
'3-3. G provides ;
" "Armed with a firearm! txcept as otherwise provided
in a specific Section, a person is considered 'armed with
a firearm' when he or she carries on or about bis or
her person or is otherwise armed with a Firearm,"
(730 \IC5 5/7-3.G (West 30003).
Section 3-1S.5 provides1.
"fersonally discharged a firearm.' A person is
considered to have 'personally discharged a firearm'
when he or she, while armed with a firearm, knowingly
*33-

qwo\

inbenbioooWy fines ofineanw cousin^ Afe awwoniAion
pno'^cbiie -Vo W fonctfuW\/ txpeWeA how Vhe fioearw."

nao W.C5 5U-\s,5 t\ksb aooo)).
Abe offense of abVtnnpbeA firsb Ae^uee n\onA er requires Abe
inbenb "Vo biii, uoiAboub iauyf o\ ^usbificobion , ai\A a/jy actio hi doflt
wbicb consbibobes a subs ban Vial sbep bowarA bbe commission of
firsb Ae<yee niunAer, 7T0 iLCS 51
caV, VUavCiKVkeb 7sOU')
(emphasis aAAeAl "inbenb may be inferred when bhe Stale shows
defenAanb commiAAeA a subshaniia\ sAep boworA bhe commission of
WUfAer. when he shoobs and wounds bis v\cblnv"; People i hliu)olir
m Iii. Kpp.3A GOa.GVG Ubm
KAams wos convicbeA and senAenced on Counb 3 of bis
inAicbmewb which aiiegeA, in perbinenb parb, bbab:
Aerome KAams commiAbed bVie offense of AbbempbeA
Firsb becyree Murder inbhabhe, Viibhoub LawFui
bsbificabion; Viibh inbenb To Kiii, hid An Act) To
\dit: Shot hichc/tl Gray About The Body, While Drived
With A Firearm., Which Constituted A Cobstontial Step
Toward The Commission OF First Degree Plunder, And
burinp Tbe Commission Of The Offense Jerome Adams
Greab bodily harm To F\icW\ Gray/ CTr. C. AT, iAT;
TrX l)ib, YiViTHernphosis adAed1).

-3H-

Kdams merely cViOse the method of using a firearm to commit
attempt murdew Mthough alleged separately and differently in the
iftdictmenlr, the allegations that Kdams shot Gray about 1 he
body while armed Ui\-Va Firearm and personally discharged o
firearm that proximately coused great bodily barm do Gray, are
oue;. and the same, art, It is IV defendant's personal discharge of
the fireorm that triggers the 95-year enhancement, not the "great
bodily harm" to the victim. Set People t GraPton, 9011 ILhppOstl
IH3l5GG- V), par.Ul. Thus, the discharge of a firearm against Gray
inflicting great bodily harm stand alone as the acFof Kdams;and
both bis 10-year baseline sentence for atfempt murder and his
3.5- year add-on mere based on this sole act
Consequently, Kdcms' 95-year add-on urns iraposed in
contravention of the express intent of the legislature and not
rationally based on the particular evil that the legislation was
intended to target, ond, as such, violative of the hue Process Clause.
Therefore, there is arguable merit to Kdams' claim that his
9.5- year add-on is unconstitutional as-applied to him, and the
Illinois circuit court erred in dismissing his section 9*1101 petition.
for these reasons, Mams respectfully requests this
Court to vacate the Illinois appellate court's judgment affirming
the dismissal of bis section 9-1101 petition; and pursuant to
People 11. Raker, 511 Ill. [\pp.5d 1055,1010 (90031, simply excise
the 95-year add-on from bis 10-year baseline sentence
without remanding this matter for resentencing,.

*35-

ard irVeoVioooVy Fires a Vrrearm causing V\\t cmvouniVion
gro'^cVWt -Vo V>t PoreepoVy exyefed Proo\ We Firearm."
(730 WCS 5U-\5.5 (TksV 3,000)).

TVe oPPtost oP oWtrogVed PirsV degree murder retires Vbe
inVeoV Vo \\\W, vuiVVouV icnuFei gusViPieoWon, and aoy■Qctfo.bidonz
vwViicK constitutes a substantial step toward He commission oP
First decree murder, 73,0 \i_CS 5 UH caV, VUa'> (V) (Yiest TOU)
(emphasis added). "intent may fe inperred Hen the Stale shows
dependant commidbed a substantial sVep toward the commission of
OUirder: Wen he shoots and wounds bis victim," People v, bliivoli,
30? Ill. hpp.Td GOT, GIG CiTVI).
(Warns was convicted and sentenced on Count 5 oPtus
indictment whictv alleged, in pertinent part, that*' vlerome Kearns committed the oPPense of Attempted
First Decpree Murder in that he, Viithout LawF.oV
JostiPication, VSiVK intent To Kill, bid AnAci) To
Wif: 5hoF Flichae.! Gray hbouT The Body} 1/Chile Drived
With h Firear/n,. Which ConsHtuhd h Fubsdanhial 5hp
Toward The Commission OF Firsh Degree Flvrder) And
During The Commission OP Tint TPpense Jerome Moms
enj
GreaV bodily form To FVichaei Gray." CTr, C. Vl( ITT;
Tr,f, 1)17, Yi^'lT) (emphasis added).

-3H-

Kdoms merely cVsqse dhe mebhod of using a f irearm bo comrit
abbempT murder. Mbhnogh alleged separadely and differenbiy in dhe
indicbmen-f, dhe allegations bhab Kdams shod Gray about Th-e
body while armed uhth a firearm and personally discharged a
firearm that proximabely caused gneob bodily harm do Gray, are
oae/ and dhe samt, act, lb is dhe deftndanbs personal discharge of
dhe firearm bhab drivers dhe 15-year enhancemeub, nod dht "great
bodily harm" do dhe viebim. Set People i GraFton, 3L0H 1Lhpp(Isd)
I5I5GG-1), par. 121. Thus, dhe discharge of a firearm againsb Gray
inflicbing greab bodily harm shard alone as dhe act of hdams; and
both bis 10-year baseline sendence for ahbenypb murder and his
15-year add-on mere hosed on dhis sole act.
Con secondly, Mams’ 15-year add-on urn imposed in
condravendion of dbe express indend of dhe legislature and nod
radionally based on dhe pQrhlculor evil dhad dhe leg!si addon urns
indended do darned, and, as such, violadive of dhe hue Process Clause.
Therefore, there is arguable merit to Maras'claim that bis
115-year add-on is unconstitutional as-applied do him, and dhe
Illinois circuid courd erred in dismissing bis Serbian 3,-IHOl petition,
for these reasons, hdams respectfully reguests dhis
Courd do vacade dhe Illinois appellate coord's judgment affirming
dhe dismissal of his seebion 1-1501 pedidion] and pursuant to
People i/. Poker, 551 III. hpp.hd 1025, 1050 Q00D simply a cl sc
dhe 15-year add-on from bis 10-year baseline sendence
without remanding dhis madder for resentencing,.

-15-

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

fame fVAnmnh
Date:

. scan

